       USE OF THE
NATIONAL AIRSPACE SYSTEM
   Federal Aviation Administration

    Report Number: CR-2008-028
     Date Issued: March 3, 2008
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Use of the National                                                   Date:    March 3, 2008
           Airspace System
           Federal Aviation Administration
           Report Number CR-2008-028
  From:    David Tornquist                                                                 Reply to
                                                                                           Attn. of:   JA-50
           Assistant Inspector General
            for Rail and Maritime Program Audits and
            Economic Analysis
    To:    Acting Federal Aviation Administrator


           This report presents the results of our audit of the use of the National Airspace
           System (NAS). The House Committee on Transportation and Infrastructure
           requested this audit to provide policymakers with a common understanding of who
           uses the NAS as they consider how to finance the aviation system into the future.
           Disagreement among stakeholders regarding their use of the NAS makes it
           difficult to evaluate Federal Aviation Administration (FAA) financing alternatives.

           Our specific objectives were to determine: (1) how different groups use NAS
           elements, (2) how that usage contributes to aviation congestion, (3) whether NAS
           users can be grouped in a meaningful manner based on their usage of the system,
           and (4) how good a proxy is jet fuel for use of FAA air traffic services.

           We examined FAA fiscal year (FY) 2005 flight activity data 1 and other data
           regarding the use of FAA tower, terminal, and en route services by different
           aircraft types and user groups. We also assessed the relationship between jet fuel
           consumption and use of FAA’s air traffic control services in several representative
           markets. A detailed discussion of our scope and methodology is included in
           Exhibit A. We conducted this audit in accordance with generally accepted
           Government Auditing Standards prescribed by the Comptroller General of the
           United States. We did not systematically audit or validate the data in any of the

           1
               FY 2005 is the latest flight activity data available from FAA that contains the corrected identification of aircraft
               engine type and operator classification necessary to undertake this analysis.
                                                                                                                        2

databases. However, we conducted trend analyses and checks of the data to assess
reasonableness and comprehensiveness. We also spoke with managers responsible
for maintaining the databases to understand any noted inconsistencies and attempt
to resolve them. Based on our understanding of the data through discussions with
knowledgeable agency officials, as well as checks for obvious errors in accuracy
and completeness, we determined that the data was sufficiently reliable for our
purposes.

BACKGROUND

Currently, NAS users pay the vast majority of FAA’s costs through ten aviation-
related excise taxes, including taxes on airfares, fuel and cargo. Almost 68 percent
of the revenue from these taxes in FY 2006 derived from the 7.5 percent ticket tax
and the then $3.30 segment tax in calendar year (CY) 2006. 2 All of the aviation
excise taxes supporting FAA’s programs will expire on June 30, 2008. 3 Congress
is currently deliberating on whether to continue, replace, or modify these excise
taxes as part of its ongoing effort to reauthorize the FAA.

Aviation stakeholder groups strongly disagree on their relative use of the aviation
system and contribution to aviation congestion. Air carrier representatives argue
that non-air carriers are significant NAS users and as such contribute to aviation
congestion and the resultant system delays. Non-air carrier representatives,
particularly general aviation and “business jet” groups, claim that they do not
make significant use of the NAS, are marginal users to the system, and do not
contribute to aviation congestion because they avoid congested airports and
airspace.

This disagreement on NAS usage leads to similar disagreements as to the relative
share of FAA’s costs that each stakeholder group should pay.4 Air carriers claim
that they are being unfairly required to pay Air Carriers are scheduled and charter
more than their use of the NAS and FAA airlines, usually operating jet or
services would justify. As a result, they turboprop aircraft with more than 30
claim that they are subsidizing non-air seats.
carriers’, in particular business jet
operators’, NAS usage. Conversely, Non-Air             Carriers are general aviation,
                                             fractional (shared) ownership, and on-
general aviation and business jet operators demand air-taxi operators using aircraft
contend they are paying their fair share for with less than 30 seats.
their relative use of the system.
2
    The segment tax rose to $3.40 in calendar year 2007.
3
    These taxes were scheduled to expire on September 30, 2007. Congress extended them through a series of
    Continuing Resolutions, the most recent of which expires on June 30, 2008.
4
    Another factor relevant to the policy decision on the amounts that user groups should pay for FAA services is the
    cost of providing individual FAA services at different locations using different staff and equipment. This report does
    not address the cost of providing individual services.
                                                                                                           3


On March 21, 2007, we testified 5 on the use of the NAS before the House
Transportation and Infrastructure Committee’s Aviation Subcommittee; our
testimony also included our observations on the Administration’s FAA financing
proposal. 6 In lieu of the Administration’s FAA financing proposal, the Senate
Commerce Committee passed the Aviation Investment and Modernization Act of
2007 (S. 1300). In addition, the Senate Finance Committee, which has jurisdiction
over the aviation excise taxes, passed its title of the FAA financing legislation.
However, the Senate as a whole has not passed a long-term FAA program
reauthorization and financing bill at this time. The House passed the FAA
Reauthorization Act of 2007 (H.R. 2881), which incorporates both program
authorization and tax provisions.

The Administration’s proposal would alter the structure of fees and taxes paid by
air carriers and non-air carriers, reflecting FAA’s conclusion that the revenues
recovered from users should be more closely linked with the cost of providing air
traffic services. The Senate Commerce and Finance Committee proposals would
change the structure of fees and taxes of non-air carriers to a lesser degree. The
House proposal fundamentally maintains the current structure of taxes among the
user groups.

RESULTS IN BRIEF

We found that air carriers and non-air carriers, including general aviation and
business jet operators, all make sufficient use of the NAS so as to materially
contribute to FAA’s costs and congestion in general. We also found alternative
NAS user groupings that are more homogeneous in terms of their use of FAA
services than the groupings reflected in the current aviation excise tax structure.
Finally, we found that jet fuel consumption is a better proxy for the use of the
NAS than the current aviation excise taxes, but it does not measure whether air
traffic control services are used, nor does it distinguish between the types and
complexities of services used.

All Aircraft Groupings by Engine or Operator Type Make Significant
Use of the NAS

We examined use of the NAS in two ways: by aircraft powered by different
engine type and by aircraft flown by different operator types. We found that all of
the groups examined made significant use of FAA air traffic control services.

5
    OIG Testimony Number CC-2007-034, “FAA’s Financing Proposal,” March 21, 2007. OIG reports and testimonies
    are available on our website: www.oig.dot.gov.
6
    The Next Generation Air Transportation Financing Reform Act of 2007 (S. 1076).
                                                                                                                                4

Piston Engine Airplanes and Rotorcraft Make Significant Use of the NAS.
While jets and turboprops were the major users of the NAS, piston engine
airplanes and rotorcraft accounted for 41 percent of FAA tower services 7 and
31 percent of FAA terminal area control services in FY 2005 (see figure 1).
However, since piston engine airplanes and rotorcraft typically operate at lower
altitudes, they only utilized 4 percent of en route services.


                                    Figure 1. Use of Air Traffic Control Services
                                             by Aircraft Type - FY 2005


                             100%
                                         Tower                         Terminal                  89%      En Route
                             80%
     Percent of Operations




                             60%                                 55%
                                    46%
                                                      41%
                             40%
                                                                                    31%

                             20%             13%                           14%
                                                                                                            7%
                                                                                                                     4%
                              0%
                                    Jet Turboprop Piston/Rotor   Jet    Turboprop Piston/Rotor   Jet   Turboprop Piston/Rotor


Source: OIG Analysis of FAA Stakeholder Data Package



Non-Air Carriers Make Significant Use of the NAS. Non-air carriers were the
major users of FAA tower and terminal area control services in FY 2005,
accounting for 59 percent and 49 percent respectively of these services. However,
air carriers were the major users of FAA en route services, accounting for
79 percent of the total (see figure 2 on the following page).




7
    FAA services were measured in terms of operations, i.e., an aircraft handled by an air traffic control facility. For a
    tower, this was a landing or take-off. For terminal area radar, this was an instrument approach, departure or other
    control within the terminal airspace. For en route, this was a mile flown under positive en route control.
                                                                                                                              5


                                      Figure 2. Use of Air Traffic Control Services
                                              by Operator Group - FY 2005
                               100%
                                                Tower                    Terminal                          En Route
                                                                                                  79%
                               80%
       Percent of Operations




                                                  59%
                               60%
                                                                               49%
                                                                      44%
                               40%      35%


                               20%                                                                          17%
                                                             6%                          7%
                                                                                                                       4%
                                0%
                                      Carrier    Non-air   Public   Carrier   Non-air   Public   Carrier   Non-air   Public
                                                 carrier                      carrier                      carrier

Source: OIG Analysis of FAA Stakeholder Data Package


We found that non-air carriers tend to avoid large primary metropolitan airports.
Overall, at the 26 8 large primary airports we examined, air carriers accounted for
93 percent of all operations. Operations by non-air carriers at these airports
ranged from as little as 1 percent to as high as 20 percent. However, we also
found that non-air carriers have significant operations at the most active towers in
the country (as determined by number of operations). More than half (53 percent)
of non-air carrier operations occurred at the top third (162) most active towered
airports (see table 4 on page 10). Finally, 77 percent of all operations at the two-
thirds of towers with the lowest activity were attributable to non-air carriers.

Business Jets’ NAS Usage Is Considerable. FAA does not track business jets as
a separate NAS user group. However, we disaggregated FAA’s data in two
different ways that shed light on the current debate among stakeholder groups
representing air carriers and business jet operators about business jets’ NAS usage.
A broader categorization that approximates business jets is non-air carrier jets (jets
operated by corporations, individuals, and air taxis and under fractional or shared
ownership arrangements). These jets accounted for 12 percent of tower and
13 percent of terminal area control services in 2005. In comparative terms, non-
air carrier jets use of tower and terminal area control services is about one-third of
air carrier jets and turboprops. A narrower categorization of business jets is
general aviation jets, which excludes air taxis and fractionals. These accounted for

8
    Four of the 30 large primary airports were not included in this analysis. Washington Reagan is general aviation
    restricted. The data for Minneapolis-St. Paul was incomplete. The data for San Diego was not provided, and
    Honolulu is geographically unique.
                                                                                                                   6

9 percent of tower and 7 percent of terminal area control services in 2005 (see
tables 1 and 2 on pages 8 and 9).

Both Air Carriers and Non-Air Carriers Contribute to Aviation
Congestion

We examined congestion 9 at several of the most active towers, terminal radar
approach control (TRACON) facilities, and en route centers. We found that air
carriers accounted for the majority of activity and congestion at the 26 large
primary metropolitan airports, with non-air carriers contributing, but to a far lesser
degree. Air carriers and non-air carriers contributed to congestion at the terminal
control areas we examined. For example, non-air carriers accounted for 20 to
30 percent of the peak level of instrument approach operations at the New York
TRACON (see figure 5 on page 14). Both commercial and general aviation
operators contributed to congestion at the heavily used en route centers we
examined. For example, general aviation operations accounted for 18 percent to
23 percent of operations at the Cleveland en route center during peak times of the
day (see figure 6 on page 15).

NAS Users Can Be Grouped More Homogeneously Than Reflected in
the Current Aviation Excise Tax Structure

The current aviation excise taxes do not group NAS users homogeneously in terms
of their use of the NAS. For example, the current tax structure groups jets used for
non-commercial purposes with general aviation piston engine airplanes, although
they are taxed at different rates. However, those jets are likely to have more in
common (in terms of NAS usage) with commercial jets, which are taxed
differently.     Certain aircraft and operator types have distinct operating
characteristics that could form the basis of more homogeneous groupings. Jet and
turboprop aircraft have different operating characteristics than piston engine
airplanes and rotorcraft. Similarly, air carrier operators have different operating
characteristics than non-air carriers. Grouping users by aircraft or operator type
would be more indicative of NAS usage than the distinctions inherent in the
current excise tax structure.

A Tax Based on Fuel Consumption Would Approximate NAS Usage,
but it Does Not Measure Use of Air Traffic Control Services

We found that a tax based on fuel consumption is a better barometer of NAS
activity than the current excise taxes because it would recover costs from users
9
    We measured congestion by examining the demand for specific air traffic services at the busiest times of day. For
    towers, we examined arriving flight operations. For TRACONs, we examined instrument approach operations. For
    en route centers, we examined operations.
                                                                                           7

more in proportion to their system activity than excise taxes. For example, our
examination of the Las Vegas to Los Angeles flight market found that commercial
aircraft accounted for 90 percent of all aircraft activity. However, commercial
aircraft paid 99 percent of the excise taxes currently collected. This share would
decline to 94 percent under a fuel-only tax. However, a fuel tax is not a perfect
proxy for NAS activity since fuel consumption can vary in proportion to factors
unrelated to that activity, such as aircraft weight. In addition, a tax based on fuel
consumption neither measures whether ATC services are used nor distinguishes
among the types and complexities of the services used. Similarly, the current
ticket, segment, and freight waybill taxes do not vary according to the complexity
or amount of ATC services consumed.

FINDINGS

All Aircraft Groupings By Engine or Operator Type Significantly Use
the NAS.

We examined use of the NAS in two ways: by aircraft powered by different engine
types (jet, turboprop, and piston/rotor) and by aircraft flown by different operator
types (air carrier, non-air carrier, and public use). We found that none of the
groups examined were marginal users of FAA air traffic control services.

Piston Engine Airplanes and Rotorcraft Significantly Use the NAS

We examined NAS usage by            Tower services manage ground operations on airport
aircraft type and found that        taxiways and runways as well as departure and
piston engine airplanes and         landing activity in airspace within about 5 miles of the
rotorcraft were significant NAS     airport. The sophistication of services ranges from
users, accounting for 41 percent    visual-only control, at the majority of airports, to
                                    radar and instrument landing aids at the larger air
of tower, 31 percent of terminal,
                                    carrier airports.
and 4 percent of en route
services in FY 2005. Turboprop      Terminal Area Control services are provided to
aircraft accounted for 13 percent   aircraft in an area that rises up to 10,000 feet and
of tower, 14 percent of terminal,   expands to a 30 to 50 mile radius of major airports.
and 7 percent of en route           Aircraft are provided instrument approaches to and
                                    departures from the primary and secondary airports
services. Jet aircraft were the     within the terminal control area or managed while
largest users of FAA services,      transiting the terminal area airspace.
accounting for 46 percent of
tower, 55 percent of terminal,      En Route Control services provide positive control
and 89 percent of en route          for all aircraft flying above 18,000 feet and those
                                    flying below that level, but operating under Instrument
services (see figure 1 on
                                    Flight Rules (IFR) conditions and oceanic air traffic
page 4).                            control for the 80 percent of controlled international
                                    airspace under FAA management.
                                                                                                                 8

Non-Air Carriers Significantly Use the NAS

We also examined NAS usage by operator type and found that in FY 2005 non-air
carriers exceeded air carriers in their use of FAA tower and terminal area control
services, but not en route services. Non-air carriers accounted for 59 percent of
tower, 49 percent of terminal, and 17 percent of en route services. Air carriers
accounted for 35 percent of tower services, 44 percent of terminal, and 79 percent
of en route services. Public users 10 accounted for 6 percent of tower services, 7
percent of terminal area control services, and 4 percent of en route services.

We also found that non-air carriers accounted for 93 percent of the aircraft
contacts made by flight service stations in FY 2005. While general aviation
operators accounted for 75 percent of the total contacts, fractionals and air taxis
accounted for 18 percent of the total contacts. 11 Users of these services are mostly
light aircraft operators, not airlines or corporate aircraft operators that contract for
weather and flight dispatch services or employ their own staff to handle these
functions.

Non-air carrier piston engine airplanes and rotorcraft were the largest users of
FAA tower services in FY 2005, accounting for 40 percent of all services. Their
usage of tower services was 33 percent higher than the next highest user group, air
carrier jets, which accounted for 30 percent of tower service usage. Non-air
carrier jets also accounted for considerable tower service usage at 12 percent (see
table 1).

                          Table 1. Tower Services Usage – FY 2005
             Percent of Tower Operations by User Category and Aircraft Type

     User                             Jet           Turboprop             Piston/Rotor              User Total
     Air Carrier                     30%                   4%                     1%                     35%
     Non-Air Carrier                 12%                  7%                     40%                     59%
     (General Aviation)               (9%)                (5%)                   (38%)                   (51%)

     Public Use                       4%                   1%                     1%                      6%
     Aircraft Total                  46%                  13%                    41%                    100%
Source: OIG Analysis of FAA Stakeholder Data Package
Percentages may not add due to rounding.




10
     Public users are military, governmental, and medical flight operators.
11
     Fractional operators are shared ownership arrangements, and air taxis are on-demand charter operators.
                                                                                      9

Air carrier jets were the largest users of terminal area control services in FY 2005,
accounting for 38 percent of those services. Their usage was 31 percent greater
than the next highest user, non-air carrier piston engine airplanes and rotorcraft, at
29 percent (see table 2). Non-air carrier jet usage of terminal area control services
was 13 percent.

         Table 2. Terminal Area Control Services Usage – FY 2005
 Percent of Approach Control Operations by User Category and Aircraft Type

  User                           Jet         Turboprop    Piston/Rotor   User Total
  Air Carrier                   38%                5%         1%           44%
  Non-Air Carrier               13%                7%        29%           49%
  (General Aviation)            (7%)               (3%)      (22%)         (33%)

  Public Use                     4%                2%         1%            7%
  Aircraft Total                55%               14%         31%          100%
Source: OIG Analysis of FAA Stakeholder Data Package
Percentages may not add due to rounding.


Air carrier jets dominated the use of en route services in FY 2005, accounting for
75 percent of those services. Their usage was almost seven times that of the next
largest user, non-air carrier jets, at 11 percent (see table 3).

             Table 3. En Route Control Services Usage – FY 2005
     Percent of Aircraft Miles Controlled by User Category and Aircraft Type

  User                           Jet         Turboprop    Piston/Rotor   User Total
  Air Carrier                   75%                3%         0%           79%
  Non-Air Carrier               11%                3%         4%           17%
  (General Aviation)            (5%)               (2%)       (3%)         (10%)

  Public Use                     3%                1%         0%            4%
  Aircraft Total                89%                7%         4%           100%
Source: OIG Analysis of FAA Stakeholder Data Package
Percentages may not add due to rounding.

We found that non-air carriers tend to avoid certain large primary metropolitan
airports. Overall, at the 26 large primary airports we examined, air carriers
accounted for 93 percent of all operations. Operations by non-air carriers at these
airports ranged from as little as 1 percent to as high as 20 percent. However, we
also found that non-air carriers have significant operations at the most active
                                                                                    10

towers in the country (as determined by number of operations), many of which
surround large primary airports.

While 87 percent of air carrier operations were at the top third most active towers
(162 airports), more than half (53 percent) of non-air carrier operations also
occurred at these airports. Total activity at the top third most active towers was
split almost evenly between air carrier and non-air carrier operations. Finally,
77 percent of all operations at the two-thirds of airports with the lowest activity
were attributable to non-air carriers (see table 4).

Some towered airports exclusively used by non-air carrier operators are among the
busiest towers in the country in terms of flight operations. Of the 40 most active
towers in the country, nine are nearly exclusive non-air carrier facilities. For
example, in FY 2005, Denver Centennial Airport, a reliever to Denver
International Airport, had more operations than New York John F. Kennedy
Airport, and Deer Valley Airport, in Phoenix, had more tower operations than
either Orlando International or San Francisco International Airports.

               Table 4. Operations at Towered Airports - FY 2005
% of Tower
Operations
                                Air Carrier            Non-Carrier        Public
          % of Carrier
          Operations

1/3 Most Active              48%                       50%           3%
    Towers                                   87%               53%                 33%

2/3 Least Active             13%                       77%           10%
     Towers                                  13%               47%                 67%
Source: OIG Analysis of FAA Stakeholder Data Package
Percentages may not add due to rounding.

Business Jets’ NAS Usage Is Considerable
The structure of taxes on “business” or “corporate” jets has become a lightening
rod in the debate regarding how to finance the FAA. Under the current system of
aviation excise taxes, the same flight can be charged a significantly different
amount depending upon the purpose for which the flight is made. An aircraft
flown by a scheduled air carrier will be charged the 7.5 percent ticket tax and the
$3.30 (CY 2006) per passenger flight segment fee. The same aircraft, privately
owned, would likely impose similar costs on FAA, but would pay less than the
scheduled airlines for those same services through the general aviation fuel tax.
                                                                                                                           11

Air carrier representatives argue that it is unfair for their passengers and
themselves to subsidize these business jets. However, the National Business
Aviation Association contends that only 3 percent of general aviation aircraft that
are used for business purposes actually belong to Fortune 500 companies (i.e. are
“corporate jets”) and business aircraft tend to avoid congested primary airports in
favor of reliever or business airports. As a result, these stakeholders contend that
the current scheme by which business aircraft are charged for air traffic services is
both fair and appropriate.
FAA does not track business jets as a separate NAS user group. This would be
difficult as it requires determining whether or not a particular flight was taken for
business purposes. However, we disaggregated FAA’s data in two different ways
that shed light on the current debate regarding business or corporate jets’ NAS
usage.
The first, broader categorization that approximates business jets is non-air carrier
jets (jets operated by corporations, individuals, and air taxis and under fractional
or shared ownership arrangements). This categorization will necessarily include a
small number of jet aircraft that are owned by individuals or corporations, but used
for recreational or non-business purposes. This categorization is significantly
smaller than the category of “business aircraft” used by some stakeholder groups,
which includes a significant number of piston engine airplane and rotorcraft
operations. Non-air carrier jets accounted for 12 percent of tower and 13 percent
of terminal area control services in 2005 (see figure 3).

                       Figure 3. Jet Use of Air Traffic Control Services - FY 2005

                            100%             Tower                     Terminal                         En Route


                            80%                                                               75%
    Percent of Operations




                            60%




                            40%
                                                                 38%
                                   30%

                            20%
                                              12%                          13%                          11%
                                                          4%                           4%                           3%
                             0%
                                   Carrier    Non-air   Public   Carrier   Non-air   Public   Carrier   Non-air   Public
                                              carrier                      carrier                      carrier

Source: OIG Analysis of FAA Stakeholder Data Package
                                                                                  12

The second, narrower categorization of business jets is general aviation jets. This
narrower categorization more closely approximates “corporate jets” used by some
stakeholder groups as opposed to our definition of business jets. Under this
narrower definition, non-air carrier general aviation jets accounted for 9 percent of
tower and 7 percent of terminal area control services in 2005. To put this in
perspective, under both categorizations, these proxies for business jets’ tower and
terminal area control services in FY 2005 was about one-third of air carrier jets.

We did find support for the argument by representatives of business jet operators
that business jets do not generally use large primary airports. As stated
previously, the majority of tower operations at these primary airports are air
carrier. However, business jets’ use of the NAS in total is not insignificant. As
we stated in our March 21, 2007 testimony, based on our analysis of NAS usage,
the use of FAA air traffic services by commercial operators, general aviation
operators, and public users is sufficient to warrant separate cost allocation
categories. None of these groups had activity levels low enough to support a
conclusion that they did not materially contribute to FAA’s costs.

Air Carriers and Non-Air Carriers Contributed to Congestion

We measured congestion by examining the demand for specific air traffic services
at the busiest times of day. For towers, we examined arriving flight operations.
For TRACONs, we examined instrument approach operations. For en route
centers, we examined operations. We found that air carriers dominate tower
activity at most of the large primary metropolitan airports and were responsible for
most of the congestion. Non-air carriers contributed to congestion at the busy
terminal control and en route facilities we examined, and less significantly at large
primary metropolitan airports.

Demand for Tower Services at Large Airports

Air carriers account for the majority of tower operations at the large, primary
metropolitan airports. Non-air carrier operators tend to use other airports in the
metropolitan area surrounding the large primary airports. At 26 large hub
(primary) airport towers, air carriers accounted for an overall average of
93 percent of operations, ranging from 78 percent to 99 percent. While non-air
carriers accounted for less than 4 percent of tower operations at 11 of the 26
airports we reviewed, at other large primary airports the percent of non-air carrier
operations ranged from 6 percent to as high as 20 percent of operations.

In terms of time of day operations, we found that at the three primary airports in
the New York metropolitan area, hourly demand for terminal area control services
increased, starting at 7:00 a.m., and peaked between 2:00 p.m. and 6:00 p.m.
                                                                                                                               13

These are popular arrival times for travelers returning to New York or connecting
to departing international flights at Kennedy. Air carriers account for the bulk of
operations during these peak time periods, and therefore account for the majority
of congestion. Non-air carriers account for a small amount of this activity (see
figure 4), but do exhibit similar time of day peaking, and as such, do contribute to
congestion. We found similar results for the other large primary airports we
examined.

                                  Figure 4. New York Terminal Control Area - FY 2005
                                             Arriving Flight Operations by Hour of Day
                                            (LaGuardia, Newark, and John F. Kennedy)




                                 120
       Average Hourly Arrivals




                                 100

                                  80

                                  60

                                  40

                                  20

                                   0
                                       7AM 8AM   9AM 10AM 11AM 12PM 1PM   2PM 3PM     4PM       5PM 6PM   7PM 8PM   9PM 10PM



                                                                non-air carrier   air carrier

Source: OIG Analysis of FAA Data


Demand for Terminal Area Services

We found that both air carriers and non-air carriers contributed to congestion at
the terminal area radar facilities we examined. 12 These facilities provide terminal
area radar services for both the primary and secondary airports within their areas
of coverage. Therefore, even though air carriers and non-air carriers may tend to
use different airports in a metropolitan area, they use the same TRACON facility.
For example, the New York TRACON facility handles three large primary
airports, 13 primarily serving air carriers, and 12 outlying towered airports,
primarily serving non-air carriers. Non-air carriers accounted for 20 percent to
30 percent of the peak level of instrument approach operations at the New York
TRACON.

12
     Terminal area radar control services are provided by terminal radar approach control (TRACON) facilities located
     within the primary airport’s control tower or in a separate facility.
13
     La Guardia, Kennedy, and Newark.
                                                                                                                                   14

Air carrier and non-air carrier demand for terminal area radar services exhibited
the same peaking during the prime travel times of the day at the metropolitan areas
we examined. In other words, both air carriers and non-air carriers were
competing for terminal area control services during the same busy, congested time
periods. For example, at the New York TRACON, non-air carriers exhibited the
same time of day peaking in demand for terminal services as did air carriers (see
figure 5). We found the same patterns of terminal service use by non-air carriers,
including time of day peaking, in our examination of activity at the Chicago
TRACON.

                               Figure 5. New York Terminal Control Area – FY 2005
                                         Instrument Approach Operations by Hour of Day
                                                  (Includes Outlying Airports)




                             140
   Average Hourly Arrivals




                             120
                             100
                             80
                             60
                             40
                             20
                              0
                                   7AM    8AM   9AM 10AM 11AM 12PM 1PM 2PM       3PM 4PM        5PM   6PM   7PM   8PM   9PM 10PM



                                                               non-air carrier    air carrier

Source: OIG Analysis of FAA Data


Demand for En Route Services

We found that both commercial and general aviation operators contributed to
congestion at the two heavily used en route centers we examined. General
aviation operators’ use of en route services was not insignificant. Their demand
for air traffic control services peaked during the busy periods at the en route
centers. Due to data limitations, we included fractional and air taxi services with
air carriers in a “commercial” category and presented general aviation separately
in the en route time of day demand analysis.
                                                                                                                                               15

As shown in figure 6, 80 percent of operations during July 2005 at the Cleveland
en route center were attributable to commercial operators and 17 percent of
operations were attributable to general aviation. In addition, general aviation
operations accounted for an even higher share of total operations, between
18 percent and 23 percent, during the most congested times.


                                   Figure 6. En Route Center Operations by Hour of Day
                                                          Cleveland Center – July 2005

                                                                                                                        Gener al A viat io n
                                                                                                                           18 % - 2 3 %
                                                                                                                         at p eak ho ur s


                                  500
                     Operations




                                  400
                Operations




                                  300
          DailyDaily




                                  200
      Average




                                  100
  Average




                                   0
                                      12AM     2AM       4AM      6AM       8AM                     2PMM 4PMM M 6PM M M 8PM M M 10PM
                                      M                                                M M 12PM
                                                                                      10AM   M M M                                 M M
                                    2A :A M :A M :A M :A M :A M :A M :A M :A M :A M 0A 1A 2P 1:P 2:P 3:P 4:P 5:P 6:P 7:P 8:P 9:P 0P 1P
                                   1    1  2    3    4    5    6    7    8    9    1 1     1                                     1  1
                                                                         public general aviation commercial


Source: OIG Analysis of FAA Data



We found the same pattern of usage at the Atlanta en route center.
Seventy-five percent of operations during July 2005 were attributable to
commercial operators and 21 percent of operations were attributable to general
aviation. As in Cleveland, the share of operations at the Atlanta en route center
attributed to general aviation during peak periods ranged from 21 percent to
28 percent (see figure 7 on the following page).
                                                                                                                                          16


                            Figure 7. En Route Center Operations by Hour of Day
                                                       Atlanta Center – July 2005

                                                                                                                 G ener al A vi at io n
                                                                                                                     2 1% - 2 8 %
                                                                                                                   at p eak ho ur s

                           500
Average Daily Operations




                           400

                           300

                           200

                           100

                            0
                                 12AM   2AM    4AM     6AM     8AM     10AM    12PM     2PM      4PM       6PM   8PM       10PM
                               M                                               M M M M M M M M M M M M M M
                              A :A M :A M :A M :A M :A M :A M :A M :A M :A M 0A 1A 2P 1:P 2:P 3:P 4:P 5:P 6:P 7:P 8:P 9:P 0P 1P
                            12 1    2 3 4          5 6       7 8 9 1 1             1                                      1 1
                                                                  public   general aviation   commercial

Source: OIG Analysis of FAA Data


NAS Users Can Be Meaningfully Grouped Based on Their System
Usage

Certain aircraft and operator types have distinct operating characteristics that form
the basis of meaningful groupings. For example, jet and turboprop aircraft share
different operating characteristics than piston engine airplanes and rotorcraft. Jet
and turboprop aircraft have greater altitude capacity and usually employ more
sophisticated navigational aids that make greater use of more complex air traffic
control services. Piston engine airplanes and rotorcraft usually fly at lower
altitudes than jet and turbo-prop aircraft, rarely using en route control services.

Similarly, air carrier operators have different operating characteristics than non-air
carriers. Air carriers generally fly fixed routes, serve large metropolitan airports,
and have specific time of day requirements. Non-air carriers generally do not
operate on a fixed schedule and rarely use large primary airports. We found these
groupings were more meaningful in terms of NAS usage than alternatives such as
commercial versus recreational aircraft. Either of these groupings (engine or
operator type) could form the basis for recovering from a group as a whole the
costs it imposes on FAA.
                                                                                                       17

        Fuel Consumption is a Better Measure of Use of the NAS than
        Existing Passenger and Cargo Taxes, but it Does Not Measure the
        Use of Air Traffic Control Services

        Existing passenger and cargo excise taxes have a minimal relationship to the use
        of air traffic control services. Trust Fund revenue generated by the passenger
        ticket taxes and cargo waybill taxes depends on the ticket price or waybill amount
        and the quantity of passengers or cargo on a flight, not the air traffic control
        services received. Thus, there is disparity among the commercial operators
        subject to the excise taxes—the revenue generated by large air carrier aircraft
        versus smaller aircraft operated by air taxis and fractional operators. The
        passenger and cargo excise taxes, which are applied only to commercial flights,
        also create a disparity when compared to the fuel tax paid by general aviation
        users of the same air traffic control services.

        Based on a review of five nonstop markets, a tax based on fuel consumption
        would distribute the fee burden more equitably than the current excise tax system.
        In the markets studied, air carriers accounted for 92 percent of all flight activity,
        but paid 99 percent of the taxes collected under the current system (see table 5).
        The tax share would decline to 97 percent under a fuel only tax (see table 5). Non-
        air carrier flights, on the other hand, comprised 8 percent of the flight activity and
        contributed only 1 percent under the current tax and fee structure. Under a fuel-
        only tax system, contributions to the cost of operations by non-air carriers would
        increase to 3 percent.


              Table 5. Fuel Consumption as a Measure of System Use
        Flight Fuel Consumption and Current Tax Contribution – October 2006

                                            Air Carrier                              Non-air carrier
                               Percent     Percent of   Contributions    Percent      Percent of   Contributions
                              of Flights     Fuel          Under        of Flights      Fuel          Under
 Market                                    Consumed     Current Tax                   Consumed     Current Tax

 Newark – Los Angeles           99.1%           99.5%      99.8%          0.9%          0.5%           0.2%
 Salt Lake City – Seattle       70.4%           82.6%      88.9%         29.6%          17.4%          11.1%
 Memphis – Miami                97.2%           99.3%      99.9%          2.8%          0.7%           0.1%
 Boston – La Guardia            97.6%           99.1%      99.9%          2.4%          0.9%           0.1%
 Las Vegas- Los Angeles         90.6%           94.4%      99.2%          9.4%          5.6%           0.8%

 Weighted Average               92.3%           96.9%      98.8%          7.7%          3.1%           1.2%
Source: OIG Analysis of FAA, BTS and DOT Data
                                                                                  18

However, a tax based on fuel consumption is not a perfect proxy for NAS activity
since fuel consumption can vary in proportion to factors unrelated to that activity,
such as aircraft weight. In addition, fuel consumption neither measures whether
ATC services are used nor distinguishes among the types and complexity of the
services used. Similarly, the current ticket, segment, and freight waybill taxes do
not vary according to the complexity or amount of ATC services consumed.

In conclusion, we did not find support for the arguments that either piston engine
airplanes, rotorcraft, or non-air carrier operators are marginal users of the NAS
and do not contribute to congestion. However, we did find support for the
argument that these user groups tend to avoid the large primary metropolitan
airports, particularly when a reliever airport is nearby. We found that both air
carriers and non-air carriers contribute to congestion at the terminal area radar and
en route facilities we examined. We also found that user groupings based either
on aircraft or operator type would provide a more homogeneous grouping of users,
according to their use of the NAS, than is inherent in the current excise tax
structure. Finally, we found that a tax based on jet fuel consumption is a better
proxy for the use of the NAS than the current aviation excise taxes, but it does not
measure whether air traffic control services are used, nor does it distinguish
between the types and complexities of services used.

We met with FAA officials to discuss our results, and their technical comments
were incorporated into the report. Since we are making no recommendations, no
formal response to this report is required. We appreciate the courtesies and
cooperation given by FAA representatives during this audit. If I can be of further
assistance, please feel free to contact me at (202) 366-1981 or Mitchell Behm,
Program Director, at (202) 366-1995.


                                         #


cc:    FAA Assistant Administrator for Aviation Policy,
        Planning, and Environment
       FAA Chief of Staff
       FAA Audit Liaison
                                                                                 19


EXHIBIT A. SCOPE AND METHODOLOGY

Scope

In a letter to the Inspector General, the House Committee on Transportation and
Infrastructure, Subcommittee on Aviation requested that our office determine who
uses the National Airspace System and how users contribute to congestion. In
addition, we were requested to evaluate whether jet fuel consumption was
representative of NAS usage.

Data in this report were obtained from the FAA. The data was used to perform the
analyses detailed below.

This performance audit was conducted in accordance with generally accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States with the exception of the data quality standards described below.
There has been no prior audit coverage in this area by the Department of
Transportation’s Office of Inspector General.

Methodology

Our analysis focused on the flight activity of FY 2005. It is the latest period for
which enhanced FAA flight activity data were available.

We analyzed data on tower, terminal area, and en route air traffic control (ATC)
operations to assess the use of air traffic control services. We obtained the
operations data from FAA. We used the data to analyze the use of ATC services
by aircraft operator type (carrier, non-air carrier, and public user) and by aircraft
engine type (jet, turboprop, and piston/rotor). The analysis extended to use of ATC
services at different types of towers and terminal control areas as well as at
domestic and oceanic en route facilities. For tower facilities, we also conducted
analyses of operations at individual tower facilities.

We examined contributions to congested air traffic control services by analyzing
demand for the largest passenger service airports and several of the most heavily
used terminal control TRACONs and en route centers. We analyzed demand by
time of day and by user group.

The fuel as a proxy analysis was based on flight data obtained using the FAA’s
ETMSC database for selected origin and destination markets over the period of
one month (October 2006).



Exhibit A. Scope and Methodology
                                                                                   20

For each of the markets selected:
   • We utilized Form 41 data to determine fuel burn rates for each of the
     aircraft types (large jets, regional jets, business jets, general aviation
     aircraft, and cargo aircraft).
   • We obtained revenue data from the FAA for cargo carriers, air taxi
     operations, belly cargo on commercial carriers, and fractional and other
     non-scheduled Part 135 passenger and cargo carriers.
   • We utilized the quarterly airfare data for Q106 which is compiled published
     by OST to estimate the average air fares between the selected origin and
     destination markets.
   • We utilized BTS data for estimates of average system-wide load factors.

Using this information we examined and modeled contributions made by different
aircraft groups under the current excise tax system compared to a fuel only excise
tax system and a weight and distance based user fee.

Data

We did not systematically audit or validate the data in any of the databases.
However, in prior work, we conducted trend analyses and checks of the data to
assess reasonableness and comprehensiveness. We also spoke with managers
responsible for maintaining the databases to understand any noted inconsistencies
and attempt to resolve them. Based on our understanding of the data through
discussions with knowledgeable agency officials, as well as checks for obvious
errors in accuracy and completeness, we determined that the data was sufficiently
reliable for our purposes.

   1. Data Package for Stakeholders: FAA-developed air traffic activity data
      and cost accounting data. The air traffic activity measures include
      operations data for FAA towers and approach control facilities and flight
      activity data for domestic and en route flights. The data provide information
      on air traffic activity by user groups (aircraft operator types) and by aircraft
      engine types. In addition, FAA provided individual flight operations
      records for flights at selected TRACONs, towers, and en route centers.
      This data included time of day information. Scope: FY 2005.

       We found that FAA understated piston engine airplane and rotorcraft NAS
       usage in FY 2005 by an estimated 6 percent due to a partial error in its




Exhibit A. Scope and Methodology
                                                                                                                      21

            methodology.14 As a result, we believe the actual percent of tower
            operations by piston engine airplanes and rotorcraft was approximately 47
            percent as opposed to the 41 percent FAA reported. Conversely, jet and
            turboprop usage was approximately 53 percent as opposed to the reported
            59 percent. The data did not allow us to restate the jet and turboprop
            categories separately. However, the error does not appear to have a
            significant impact on the results of the FAA cost allocation methodology.

       2. Air Traffic Activity Data System (ATADS): An FAA database of flight
          activity at staffed facilities. Scope: Airport towers across the country,
          FY 2005.

       3. Enhanced Traffic Management System (ETMS): An FAA-maintained
          database providing detailed flight records, including time, distance, aircraft
          types, and user types for aircraft flying under an instrument flight plan.
          Scope: October 2006.




14
     FAA made an allocation of generic general aviation operations among the different engine type classifications
     without taking into consideration that most general aviation jet and turboprop aircraft were already accounted for in
     another (ETMS) data source, thus creating duplicate counts for many of those types and under counting of piston and
     rotor aircraft operations.


Exhibit A. Scope and Methodology
                                                                  22


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                          Title

  David Tornquist               Assistant Inspector General for
                                Rail and Maritime Program
                                Audits and Economic Analysis

  Mitchell Behm                 Program Director

  Marshall Jackson              Project Manager

  Stephen Smith                 Transportation Industry Analyst

  Ralph W. Morris               Economist

  Jay Borwankar                 Financial Analyst

  Meredith McDaniel             Analyst

  Darlisa Crawford              Writer-Editor
                                                                                23

The following pages contain textual versions of the charts and graphs found in this
document. These pages were not in the original document, but have been added
here to accommodate assistive technology.
                                                                              24

                     Use of the National Airspace System
                     Section 508 Compliant Presentation

Figure 1. Use of Air Traffic Control Services by Aircraft Type – FY 2005

 Aircraft Type      Tower        Terminal            En Route
Jet                  46%           55%                 89%
Turboprop            13%           14%                  7%
Piston/Rotorcraft    41%           31%                  4%

Figure 2. Use of Air Traffic Control Services by Operator Group – FY 2005

  Operator          Tower      Terminal          En Route
    Group
Carrier             35%           44%                 79%
Non-Air             59%           49%                 17%
Carrier
Public               6%           7%                  4%

Figure 3. Jet Use of Air Traffic Control Services – FY 2005

  Operator          Tower      Terminal          En Route
    Group
Carrier             30%           38%                 75%
Non-Air             12%           13%                 11%
Carrier
Public               4%           4%                  3%

Figure 4. New York Terminal Control Area – FY 2005
Arriving Flight Operations by Hour of Day
(LaGuardia, Newark, and John F. Kennedy Airports)

      Time of Day           Air Carrier Operations          Non-Air Carrier
                                                              Operations
          7 a.m.                      67                          2
          8 a.m.                      69                          2
          9 a.m.                      65                          2
         10 a.m.                      78                          3
         11 a.m.                      75                          3
         12 p.m.                     89                           2
         1 p.m.                      89                           3
         2 p.m.                      106                          3
                                                                        25

         3 p.m.                   108                       3
         4 p.m.                   115                       4
         5 p.m.                   94                        3
         6 p.m.                   100                       3
         7 p.m.                   100                       2
Figure 5. New York Terminal Control Area – FY 2005
Instrument Approach Operations by Hour of Day
(Includes Outlying Airports)

     Time of Day         Air Carrier Operations       Non-Air Carrier
                                                        Operations
         7 a.m.                    71                       19
         8 a.m.                    74                       27
         9 a.m.                    73                       29
        10 a.m.                    87                       33
        11 a.m.                    82                       36
        12 p.m.                   98                        38
        1 p.m.                    96                        39
        2 p.m.                    115                       42
        3 p.m.                    117                       46
        4 p.m.                    129                       50
        5 p.m.                    105                       53
        6 p.m.                    110                       48
        7 p.m.                    108                       40

Figure 6. En Route Center Operations by Hour of Day
Cleveland Center – July 2005

  Time of Day        Commercial         General Aviation     Public
                     Operations           Operations        Operations
    12 a.m.             75                     9                2
    1 a.m.              38                     5                2
    2 a.m.              26                     3                2
    3 a.m.              28                     3                1
    4 a.m.              52                     4                1
    5 a.m.              118                    8                2
    6 a.m.              237                   28                4
    7 a.m.              328                   70                7
    8 a.m.              312                   95                9
    9 a.m.              392                   101              12
    10 a.m.             366                   104              13
    11 a.m.             309                   93               11
                                                                               26

     12 p.m.                366                    94                   12
     1 p.m.                 333                     98                  12
     2 p.m.                 354                    103                  13
     3 p.m.                 423                    105                  12
     4 p.m.                 347                    109                  11
     5 p.m.                 411                    96                   10
     6 p.m.                 359                    80                    9
     7 p.m.                 413                    58                    9
     8 p.m.                 352                    47                    7
     9 p.m.                 335                    34                    4
     10 p.m.                248                    23                    4
     11 p.m.                160                    15                    3

Note: General Aviation represents between 18 percent and 23 percent of total
operations during peak hours.

Figure 7. En Route Center Operations by Hour of Day
Atlanta Center – July 2005

  Time of Day          Commercial          General Aviation         Public
                       Operations            Operations            Operations
     12 a.m.               94                    10                    3
      1 a.m.               38                     6                    2
      2 a.m.               16                     4                    1
      3 a.m.               15                     4                    1
      4 a.m.               28                     5                    1
      5 a.m.               70                     8                    1
      6 a.m.              197                     30                   1
      7 a.m.              286                     83                   4
      8 a.m.              346                    134                   9
      9 a.m.              412                    155                  20
     10 a.m.              374                    151                  23
     11 a.m.              403                    141                  24
     12 p.m.              394                    133                  24
     1 p.m.               380                    133                  24
     2 p.m.               371                    138                  24
     3 p.m.               378                    142                  24
     4 p.m.               388                    142                  21
     5 p.m.               401                    124                  15
     6 p.m.               370                     99                  13
     7 p.m.               372                     72                  11
     8 p.m.               330                     55                  11
                                                                               27

     9 p.m.                 371                    38                   8
     10 p.m.                304                    27                   5
     11 p.m.                193                    16                   3

Note: General Aviation represents between 21 percent and 28 percent of total
operations during peak hours.
